 

Case: 19-60705 Document: 00515845520 Page:1 Date Filed: 05/03/2021

Gnited States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fitth Circuit

. FILED
No. 19-60705 May 3, 2021

Lyle W. Cayce
PATRICIA ANN BROWN, Clerk

Petitioner—Appellant,
versus

COMMISSIONER OF THE MIS SISSIPPI DEPARTMENT OF
CORRECTIONS; SHELIA ParKS, Warden of Central Mississippi
Correctional Facility; X, Y, AND Z,

Respondents— Appellees.

Appeal from the United States District Court
for the Northern District of Mississippi
USDC No. 3:18-CV-148

ORDER:

For the reasons stated by the district court in its Memorandum
Opinion, dated August 23, 2019, IT IS ORDERED that Appellant’s
motion for a certificate of appealability is DENIED.

PHEN A. HIGGINSO
United States Circuit Judge

APPENDIX A
